WAIVER

Supreme Court, U.S.
FILED
SEP

18 2020

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No 20-192

MARY LOUISE SERAFINE

KARIN CRUMP, ET AL.

(Petitioner)

( Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
D Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

HON. KARIN CRUMP

D I am a member of the Bar of the Supreme Court of the United States.
D I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed lea Bar member.
Signatu e
Date'

9/1-6020

(Type or print) Name PATRICK T. POPE
0 Mr.
❑ Ms. . D Mrs.
Firm

TRAVIS COUNTY ATTORNEY

Address

314 W. 11TH ST. SUITE 500

City & State
Phone

0 Miss

AUSTIN, TEXAS

512 .854.9523

Zip
Email

78701

PATRICK.POPE@TRAVISCOUNTYTX.GOV

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: MARY LOUISE SERAFINE

DAVID A. ESCAMILLA

LITIGATION DIVISION

COUNTY ATTORNEY

LESLIE W. DIPPEL
DIRECTOR

DAN HAMRE
FIRST ASSISTANT

ANTHONY J. NELSON

SHERINE E. THOMASt
EXECUTIVE ASSISTANT

LAURIE R. EISERLOH'

314 W. 11TH , STREET
GRANGER BLDG., SUITE 600
AUSTIN, TEXAS 78701

PATRICK M. KELLY
AMY S. YBARRA

P. 0. BOX 1748
AUSTIN, TEXAS 78767

PATRICK T. POPE
CYNTHIA W. VEIDT

(512) 864-9613
FAX: (612) 864-4808

- BOARD CERTIFIED-LABOR 8 EMPLOYMENT
LAW AND PERSONAL INJURY TRIAL LAWTEXAS BOARD OF LEGAL SPECIALIZATION

}MEMBER OF THE COLLEGE
OF THE STATE BAR

September 18, 2020
VIA US MAIL
Clerk's Office
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Supreme Court Case No. 20-192, Appeal No. 18-50719, In the United States
Court of Appeals for the Fifth Circuit, on appeal from Civil Action No. 1:17-cv1123; Mary Louise Serafine vs. Karin Crump, et al.; In the United States District
Court for the Western District of Texas, Austin Division

To whom it may concern:
Please find attached Respondent Karin Crump's Waiver to be docketed today in the
above cited case.

Gabe Hodge
Paralegal to:
Anthony J. Nelson
Patrick T. Pope
Assistant County Attorneys
DHG/encl.

RECEIVED
SEP 2 5 2020
O THE CLERK
SUPREMECOURT U.S,

